.




       YOUTH ACCESS              TO CIGARETTES 





    OFFICE OF INSPECTOR GENERAL
    OFFICE OF EVALUATION AND INSPECTIONS
                                             MAY 1990
     YOUTH        ACCESS         TO CIGARETTES 





                     Richard P. Kusserow
                     INSPECTOR   GENERAL




OEI-02-90-02310                               MAY 1990 

                                        EXECUTIVE SUMMARY 



        PURPOSE

        To assessthe enforcement of State laws prohibiting the sale of cigarettes to minors.


        BACKGROUND

    As part of his initiative on smoking, Secretary Sullivan asked the Office of Inspector General
    to survey States regarding their laws on the sale of cigarettes to minors. He wanted to know
    the extent to which the laws are enforced, the nature of enforcement activities and the most
-   effective practices.

    Research has documented that millions of youth smoke, despite the existence of laws in 44
    States and the District of Columbia prohibiting the sale of cigarettes to minors. Yet, a Journal
    of the American Medical Association article estimates that more than 3 million American
    children under age 18 consume 947 million packs of cigarettes yearly.


    METHODOLOGY

    The study team interviewed State health and law enforcement agencies to document any
    enforcement activity; conducted in-depth studies of 11 specific active State and local
    enforcement efforts; and completed 1200 interviews in 18 States with students, parents,
    vendors and other adults to assessthe public’s knowledge and awareness of laws prohibiting
    the sale of cigarettes to minors.


    FINDINGS

    .        Youth access laws are not being enforced.

    .        Children can easily buy cigarettes.

    .        Areas of active enforcement are few; they rely on local leadership.

    .        Active enforcement involves a variety of techniques, primarily administrative in nature.
                    Among the most common approaches are’licensing, fines, stings, restrictions on
                    vending machines, and warning signs.
                                            TABLE OF CONTENTS


     EXECUTIVE SUMMARY

     INTRODUCTION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..l

     BACKGROUND            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1 


     METHODOLOGY            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2 


     FINDINGS    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3 


          Youth Access Laws Are Not Being Enforced, 

          and Children Can Easily Buy Cigarettes . . . . . . . . . . . . . . . . . . . . . . . .3 


          Areas of Active Enforcement Are Few; 

          They Rely on Local Leadership . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5 


          Active Enforcement Involves a Variety of 

          Techniques, Primarily Administrative in Nature                                  . . . . . . . . . . . . . . . . . .6 





.-
                                         INTRODUCTION 



   PURPOSE

   To assessthe enforcement of State laws prohibiting the sale of cigarettes to minors.

   BACKGROUND

    As part of his initiative on smoking, Secretary Sullivan asked the Office of Inspector General
_ 	 to survey States regarding their laws on the sale of cigarettes to minors. He specifically
    wanted to know the extent to which the laws are enforced, the nature of enforcement activities
    and the most effective practices. Although the Surgeon General reports that most States have
    youth access laws, there is little information on their enforcement.

   Research has documented that children smoke. Each day more than 3,000 children start
   smoking. A Journal of the American Medical Association article estimates that mom than 3
   million American children under age 18 consume 947 million packs of cigarettes yearly.
   Additionally, 75 percent of current adult smokers started smoking before their 18th birthday.
   The Annual High School Seniors Survey, conducted in 1987 by the University of Michigan,
   reports that approximately one out of every five high school seniors smoke daily, and that over
   half the seniors who smoked began smoking by the eighth grade.

   According to a study by the Minnesota Tobacco-Free Youth Project, the earlier a child starts
   using tobacco, the more likely it is that he/she will be unable to quit. The samestudy found
   that more than one-half of high school seniors who smoke daily have tried to quit without success.

  States have responded to the fact that children smoke by passing laws that prohibit the sale of
  cigarettes to minors. Currently, 44 States and the District of Columbia have such laws. The
  age at which children are no longer considered minors ranges from 15 to 19, with 18 being the
  most common. These are not new laws; most were enacted between 1890 and 1920 as a result
  of pressure from activists who were trying to prevent young boys from smoking. As recently
  as 1964,48 States had laws prohibiting the sale of cigarettes to minors, but some were
  repealed because they were considered unenforceable. In at least 11 States vendors must post
  signs stating it is illegal to sell cigarettes to minors.

  Penalties for violation of these laws vary greatly -- from a $2 fine in Washington D.C., to a
  maximum of a $3,000 fine and/or a year in jail in Minnesota. In most States the penalty is a
  fine and/or jail. Despite the fact that virtually all States license the sale or distribution of
  cigarettes, only four have license revocation as a penalty for sehing to minors. Most States
  leave enforcement to local law enforcement officials. However, in Florida and New
  Hampshire, State taxation agencies have the responsibility; in Massachusetts, it is the State
  Department of Public Health.
Indications that enforcement may be weak came not only from the observable fact that teens
are smoking, but also from a number of studies and from controlled purchases or “stings” that
demonstrated children can and do buy cigarettes. Dozens of such local “stings” have been run
by researchers, local reporters, police, and health departments to test youth access laws.
Generally, minors were able to purchase cigarettes illegally about 80 percent of the time.

Additionally, in 1987, nearly 90 percent of a sample of Minnesota 10th graders who smoked
regularly reported that it was very easy to obtain cigarettes despite a State law. In the 1987
“National Adolescent Student Health Survey” of 1100 students, 73 percent of the 8th and 10th
graders said it was very easy to buy; 13 percent said its fairly easy. Also in 1987.90 percent
of a sample of New Jersey high school students who smoked said they could always or nearly
always buy cigarettes.

METHODOLOGY

Data collection was performed in three stages. Initially, the study team interviewed each State
health and law enforcement agency where access laws exist to document enforcement activity.
Interviews were conducted with a person designated in each State as the tobacco contact
person in response to a request from the Association of State and Territorial Health Officials.
This tobacco contact person described his/her awareness of enforcement activities as well as ’
perceived problems with enforcement. The law enforcement official contacted was the
State-designated National Crime Information Center (NCIC) contact, who was asked to
provide statistics on the enforcement of these State statutes.

In the second stage of the inspection the team studied specific State and local enforcement
efforts. An extensive literature review and contact with State officials, experts and academics
in the youth smoking field indicated 10 local areas and one State, Florida, where enforcement
was actively occurring. Individual communities actively enforcing youth access laws are
located in California, Illinois, Massachusetts, Michigan, Minnesota, New York, Pennsylvania,
Utah and Washington. In-person and telephone interviews, using open-ended discussion
guides, were utilized to study these special enforcement efforts.

In the third stage, OIG staff assessedthe public’s knowledge and awareness of laws
prohibiting the sale of cigarettes to minors. A questionnaire was developed, and almost 1200
interviews in urban and suburban settings were completed during April. The interviews took
place in over 300 communities in eighteen States: California, Connecticut, Colorado, Georgia,
Illinois, Kansas, Maryland, Massachusetts, Missouri, New Jersey, New York, Ohio,
Pennsylvania, Texas, Vermont, Virginia, Washington and Wisconsin. The subjects interviewed
included 295 vendors, 322 students and 561 other adults. These adults included 112 school
officials, 95 law enforcement officials, 87 public health officials and 250 parents. The number
of respondents varies by each question.
     0                                          FINDINGS

     Youth Access      Laws Are Not Being Enforced,         and Children     Can Easily Buy
     Cigarettes.

     State officials report that laws are not being enforced.

     Two-thirds of State health department officials indicate that there is virtually no enforcement
     of their State law; another fifth say it is minimal.

     Nearly half of the State health officials believe the law is not being enforced because it is not a
-	   priority. “People don’t get excited about tobacco,” explained one health official. The general
     sentiment is captured in another official’s response that “people feel [that] there are more
     important issues that must be enforced.” Other State health officials cite both a lack of
     funding and difficulty in enforcing the law as reasons for nonenforcement.

     State-level police data also confirm the minimal level of enforcement. The majority of NCIC
     control agencies contacted could not provide actual numbers on violations and enforcement.
     Of the 44 States with laws prohibiting the sale of cigarettes to minors, only five could provide
     any statistical information on vendor violations:


           STATE                                    1989 VENDOR VIOLATIONS 

           Alaska                                       8

           Connecticut                                  0

           Florida                                       16 

           New York                                     8

           Vermont                                      0


     A notable area of statistical accomplishment is Utah which in 1989 issued 4476 violations to
     minors for purchasing and/or possessing tobacco.

     Law enforcement officials in the remaining States report that municipalities are either not
     required to report such minor offenses, or that all such offenses are lumped together in a
     miscellaneous category and cannot be accessed separately.

     Discussions with local law enforcement officials further confirm the impression that little is
     being done. More than three-quarters interviewed from 78 communities around the country
     do not think youth access laws are being enforced in their communities. In fact, 76 of 89
     (85%) report that they do not know of anyone ever being caught breaking this law.

     Local public health officials agree. More than two-thirds interviewed believe the law is not
     being enforced in their local area; 64 of 73 respondents (88%) do not know of anyone ever
     being caught under this law.
Community respondents also note lack of enforcement.

More than three-quarters of respondents in the community also say youth access laws are not
being enforced. This includes 246 of 320 student respondents (77%) and 429 of 559 adults
(77%) including law enforcement officials. Half of the vendors surveyed agree.

Respondents in the community also do not know anyone who has ever been caught selling
cigarettes to minors; 206 of 255 student respondents (81%) and 421 of 488 adult respondents
(86%) do not know anyone who has ever been caught. The majority of vendors, 227 of 268
(85%), arc likewise unaware of anyone ever being caught.

Respondents also say children can easily buy cigarettes in their community. The majority of
adult and student respondents, 477 of 560 adults (84%) and 269 of 3 19 students (84%),
consider it easy. Of 159 children who say they have smoked, 139 (87%) claim that it is easy
to buy cigarettes. About two-thirds of the vendors agree.

Despite easy access and lack of enforcement, most respondents are, nevertheless, awam of the
youth access law in their State. Three-quarters of students know of these laws. Similarly, 479
of 552 responding adults (86%). including 90 of 94 law enforcement officials (96%), are
aware of them Most store clerks, managers and owners, 266 of 292 (91%), know it is illegal
to sell cigarettes to minors. When asked how they became aware of these laws, vendors most
often mentioned that it is common knowledge, while others report that their employer
informed them.


Lack of enforcement is due to apathy.

Overall, both adults and vendors suggest apathy as the major reason why these laws are not
being enforced, Of the 429 adult respondents who believe the law is not enforced, 97 (23%)
believe that the law is not a priority with the police or limited resources for enforcement exist.
Ninety-five (22%) say the law is not a community priority and no one really cares about it.
Ninety-three (22%) blame vendors for not caring who they sell to and just wanting the profits
from sales. Only 17 adult respondents (4%) blame a lack of awareness of the law.

Vendors generally agree with adult respondents. Of the 145 vendor respondents who believe
the law is not enforced, 30 (2 1%) say that vendors in general do not care who they sell to and
find it inconvenient to check identification. Thirty (21%) believe that the police are too busy
to enforce the law and 28 (19%) suggest public apathy.

Other respondents in the community attribute nonenforcement to, as one respondent noted, “a
lack of political pressure to have police or anyone else enforce it.” Others believe that teens
would get cigarettes anyway, especially from vending machines, and that the law is too
difficult to enforce.




                                                4

              The majority of experts in the youth smoking field and officials in the communities taking
              local initiative believe these laws are a low police priority. “The police don’t acknowledge it
              as a problem,” one respondent explained. As one local official noted, ‘Local cops have more
              than they can handle. They don’t have time for this law.” One expert commented that
              “enforcement is not occurring because the community is not making a fuss about it.” Others
              cite a lack of leadership and the absence of an identifiable person or agency responsible for
              enforcement.

              The majority of the law enforcement officials confirm that it is not a priority and say they
              have more imponant issues to address. As one officer notes, ‘The law is not important
              enough to have officers using their time to enforce it.” Local law enforcement agencies also
‘.            mention reluctance to take these cases into the congested court systems, noting that
          _   prosecution of criminal laws is not only time consuming but costly.


              Areas of Active Enforcement        Are Few; They Rely on Local Leadership.

              Local leadership exists in nearly all active enforcement areas.

              Eleven active enforcement initiatives were identified and contacted; all but one (Florida) were
              local initiatives supported by the community. These areas include:

                    Solano County, CA                            Woodridge, IL
                    Brookline, MA                                Leominster, MA
                    Marquette County, MI                         Minneapolis, MN
                    White Bear Lake, MN                          Allentown, PA
                    Layton, UT                                   King County, WA

              In eight of these areas, local laws have been established and arc being enforced, while in the
              remaining three the State law is being enforced.

              In some States, these active communities have served as examples for other municipalities
              which have now also adopted similar enforcement policies. There may be more than one
     .
       active town in each area; however, interviews were held only with those who first became
              active.

              Generally, these enforcement initiatives have resulted from community concern and local
              leadership. In Woodridge, a local junior high school principal became concerned when a
              young student was seen purchasing cigarettes in a nearby store, and asked the youth officer
              from the local police department if it was illegal. After’some research, the officer discovered
              it was, in fact, illegal. The officer then helped write a town ordinance prohibiting sale to
              minors and possession by minors. In the last year, three vendors’ licenses have been
              suspended and over 30 minors have been ticketed. Many surrounding towns followed his lead
              and adopted similar local ordinances.
In Massachusetts, in response to an apparent lack of enforcement of the youth access law, the
State Health Department asked local health departments to take on the responsibility. So far,
two have accepted and are issuing tickets to violators. Both towns have adopted the State law
as a local public health law, thus allowing enforcement by local health inspectors.

Information obtained at a smoking conference showing that nine percent of seventh graders
smoke motivated the Allentown Health Department to look into enforcement of the State’s
law. In its frost test of the law, it found that all 15 of its 15 test stores sold cigarettes to minors.

In Solano County California, the Cancer Control Program, concerned about the public health
effect of teens smoking, encouraged three local police departments to enforce the State’s law.
These effons resulted in 3 1 arrests.


Active Enforcement        Involves a Variety of Techniques,           Primarily    Administrative
in Nature.

Among the most commonly used techniques are licensing, fines, stings, restrictions on
vending machines, and warning signs.


Licensing appears to be an effective tool in enforcing youth access laws.

Of the eleven active programs contacted, eight provide for revocation or suspension of the
vendor’s license following a prescribed number of violations. While all States license the
production, distribution or sale of tobacco, only 3 1 license vendors; the remaining States
license the wholesaler or the distributor. The source of these licenses varies; some ax issued
locally and others are issued by the State. Suspending a vendor’s right to sell cigarettes for a
period of time has greater impact than a fine, according to active enforcers. Since sales can
account for hundreds of dollars of a store’s daily intake, a minor monetary fine, in contrast, is
relatively painless to pay. Also, a vendor who is forced to turn customers away may lose
customers. Officials in these communities agree that a license revocation penalty causes
vendors to obey the law. They point to the virtually self-enforcing alcohol laws as models.

Three types of license revocation were identified in the active communities. In Florida, the
law prohibiting the sale of tobacco to minors is enforced by the Division of Alcoholic
Beverages and Tobacco. Vendors who violate cigarette access laws can and do have their
license to sell alcohol suspended. This occurred 16 times last year. In Brookline and
Leominster, where the law is enforced by the local health department, vendors lose their food
licenses. The first license was suspended recently. Iti the remaining sites, tobacco licenses
issued locally to vendors are revoked when misused. In all three cases, suspensions are for a
period of days for the first offense and longer for each added offense. One active enforcer
stressed the importance of making these punishments reasonable. “If you make it too severe,
you’ll lose that crucial community support.”
License fees vary greatly and can be used in many ways. Fees charged for these vendor
licenses range from $5 for 3 years in Marquette County, MI to $210 for 3 years in King
County, WA. In some areas (Ring County and Florida) fees are earmarked to pay for
enforcement, while in others (Bmokline) they fund tobacco and health education programs.


Civilfines work better than criminal penalties.

 While criminal offenses must work their way through the criminal justice system, civil
 offenses are generally handled administratively. Seen as a viable alternative in the
 enforcement of youth access laws, they are used in six of the eleven active communities.
 Civil penalties expedite enforcement through the use of non-traditional enforcement officials
 (i.e., health inspectors, licensing inspectors, etc.), and avoid needlessly clogging the criminal
justice system. In Minnesota, the penalty for selling to a minor is a gross misdemeanor, which
if enforced, could mean jail for the clerks who sell. However, when three clerks in Ramsey
were arrested for selling to minors, there was a public outcry for more lenient penalties.
Minneapolis thus chose to punish violators civilly, going after the owner’s license rather than
the clerk.

 In Florida, the access laws are criminal and violators must appear in court. Criminal court
judges, however, feel strongly that these violators should not be burdened with a criminal
record for such a common offense. The judges issue fines, but the violators are not
adjudicated as guilty and, therefore, avoid criminal records. In some California criminal
courts, judges have suspended sentences and have only issued fines. They also believe that
criminal penalties do not fit this crime.

In Leominster and Brookline, sanitarians and public health officials issue tickets on which the
fines are outlined. Cases are handled entirely by the health department; the police are not
involved.

Overall, civil penalties are well received by active communities. When asked why other State
youth access laws are generally not enforced, a majority of active community respondents
believe it is because it is not a police priority; some blame public apathy. They feel that
people, while not wanting children to purchase cigarettes, believe that police should be
concentrating on more important issues, like illegal drugs and rape.                 .

PoIice involved in actively enforcing these laws believe that the laws should be civil as
opposed to criminal and would be more appropriately.enforced by health departments and
licensing officials. One of the more successful police enforcers stated, “The police department
should not enforce this law. Citizens would argue there’s not enough manpower. The health
department is a more appropriate arm because it is not an offensive crime. It is a health issue -
an administrative issue.”
Limited placement allows for vending machines in places that do not normally allow children
anyway (i.e., bars, offices or factories). Currently, only 6 percent of State health departments
interviewed report that their youth access laws limit the placement of vending machines, but
half suggest limiting placement.

Locking devices require the instalIation of a relatively inexpensive device that inactivates the
machine until a clerk triggers the power, thus allowing the clerk to check the age of the
purchaser. Utah experimented with locking devices recently with limited success.
Reportedly, clerks would simply activate the machine without checking the age of the
purchaser. Since locking devices require employee participation, they are often not as
effective in busy places, such as bars or restaurants, where employees are more likely to
simply activate the machine.

Sixteen municipalities in Minnesota recently banned cigarette vending machines entirely.
These bans have generally been well received and are expected to lead to stricter enforcement
of over-the-counter sales. The remaining 42 percent of State health department officials say
that total bans are the only way to prevent teens from using vending machines.


Warning signs remind both clerks and customersthat sale to minors is illegal.

Currently, seven of the eleven active communities require vendors to post signs at the point of
sale stating that it is illegal to sell to minors. Similarly, 55 percent of State health departments
say vendors in their States are required to post warning signs. In Massachusetts, vendors must.
place these signs in such a way that they face the clerk as a constant reminder. In Utah,
innovative designs and neon colors have been used to make signs distributed by local health
departments more noticeable. In addition to signs, Woodridge clerks wear buttons reminding
customers of the new ordinance. While enforcement experts stress that signs alone are not
enough to stop illegal sales, they are a constant reminder to both children and employees.


Experts believe that making tobacco laws similar to alcohol laws would be an effective
enforcement mechanism.

Enforcement in Florida, conducted by the Division of Alcoholic Beverages and Tobacco, is
the same for alcohol and tobacco sales to minors, although ages differ (21 and 18,
respectively). Three other States with similar alcohol/tobacco control agencies are not
actively enforcing tobacco access laws, although they have the authority. At least two alcohol
control agencies (ME, WA) report that their State legislatures arc considering authorizing
them to enforce existing tobacco access laws. Sixty percent of State health department
respondents believe that the alcohol enforcement model would work for tobacco, and point to
the license revocation provision in particular. Those who feel that the alcohol enforcement
model would not work for cigarettes cite the extremely high number of tobacco vendors,
which far exceeds the number of alcohol vendors.
Those proposing new youth access legislation are cautioned not to preempt any already
existing local activity.

Officials in charge of active enforcement initiatives based on locally enacted ordinances
caution that State laws should not preempt stronger local legislation. As a case in point,
California recently passed a State law which precludes municipalities from enacting tobacco
control laws.


Opinions vary as to whether or not to make it illegal for minors to possess cigarettes.

 In five of the eleven sites contacted, it is illegal for a child to possess cigarettes. Enforcement
experts believe this makes enforcement easier, serves as an additional deterrent and gives the
vendor leverage when refusing to sell to minors. Penalties for youth violators range from 5
hours of community service to a $50 fine. In two areas enforcement is directed at the minor as
opposed to the vendor: ticketing teens and suspending them from school and extra-curricular
activities for possessing cigarettes is central to Utah’s approach; White Bear Lake, MN brings
them to the police station when caught in possession of cigarettes. California notes that
caution must be used when performing stings in communities where possession or purchase is
illegal. These minors must either be police agents or have special police permission.




                                                10 

